No. 20-843
IN THE

Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ROBERT NASH, BRANDON KOCH,
Petitioners,
v.
KEVIN P. BRUEN, in His official capacity as Superintendent of the New York State
Police, RICHARD J. MCNALLY, JR., in His official capacity as Justice of the New York
Supreme Court, Third Judicial District, and Licensing Officer for Rensselaer County,
Respondents.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Mark D. Selwyn, a member of the
bar of this Court, certify that the accompanying Brief for Amici Curiae Professors of
History and Law in Support of Respondents contains 7,962 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d).
Executed on September 21, 2021.

MARK D. SELWYN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
(650) 858-6000
mark.selwyn@wilmerhale.com

